Record No. _____

In The

Supreme Court of the United States
JAMES BAXTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, James Baxton, requests leave to file the attached
Petition for a Writ of Certiorari to the United States Supreme Court for
the Fourth Circuit without prepayment of costs and to proceed in forma
pauperis pursuant to Rule 39. The United States Court of Appeals for
the Fourth Circuit appointed counsel to represent Petitioner. The Order
appointing counsel is attached to this motion. Petitioner has remained
incarcerated since the commencement of his case, and on information
and belief, is indigent.
December 21, 2020
Respectfully Submitted,
By: James Baxton
/s/ Matthew C. Joseph
Matthew C. Joseph
LAW OFFICE OF NORMAN BUTLER
725 E. Trade St, Ste 100
Charlotte, NC 28202
Telephone: (704) 335-8686
Fax: (704) 332-6213
butlerlawoffice@aol.com
Counsel for Petitioner

USCA4 Appeal: 18-4665

Doc: 2

Filed: 09/17/2018

Pg: 1 of 2

FILED: September 17, 2018
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4665
(3:17-cr-00134-FDW-DSC-5)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JAMES BAXTON, a/k/a Grown, a/k/a Frank White
Defendant - Appellant
___________________
ORDER
___________________
The court appoints Matthew Collin Joseph to represent James Baxton.
Counsel is referred to the CJA Payment Memorandum and the CJA eVoucher
Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form

USCA4 Appeal: 18-4665

Doc: 2

Filed: 09/17/2018

Pg: 2 of 2

to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as
an ECF Filer.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

